U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 3, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Cedric L. McDonald v. United States, No. 19-557
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 28,
2019. The government's response is now due, after one extension, on January 22, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 21, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0557
MCDONALD, CEDRIC L.
USA

STEVEN J. DRAY
DEFENSE APPELLATE DIVISION
U.S. ARMY LEGAL SERVICES AGENCY
9275 GUNSTON ROAD
FORT BELVOIR, VA 22060
703-693-0725
STEVEN.J.DRAY.MIL@MAIL.COM
DAVID A. GOLDENBERG
SIDLEY AUSTiN LLP
1501 K STREET, NW
WASHINGTON, DC 20005
202-736-8000
TIMOTHY GRAMMEL
DEPART OF THE ARMY
U.S. ARMY LEGAL SERVICE AGENCY
TRAIAL DEFESE SERVICE
9275 GUNSTON ROAD
FORT BELVOIR, VA 22060-5 546
703-693-0362
TIMOTHY.GRAMMEL.CIV@MAIL.MIL
JEFFREY T. GREEN
NORTHWESTERN SUPREME COURT
PRACTICUM
375 EAST CHICAGO AVE.
CHICAGO, IL 60611
312-503-1486

